Case: 19-16100, 12/08/2020, ID: 11919531, DktEntry: 70, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

DEC 8 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

VIVIAN EPPS,

No. 19-16100
Plaintiff-Appellant,

v.

CVS HEALTH CORPORATION,

D.C. No. 2:18-cv-01274-DGC
District of Arizona,
Phoenix
ORDER

Defendant-Appellee.
Before:

TASHIMA, SILVERMAN, and OWENS, Circuit Judges.

Epps’s petition for panel rehearing (Docket Entry No. 68) is denied. Her
motion for peremptory challenge (Docket Entry No. 69) is denied as moot.
Non-party Lukashin’s request for publication (Docket Entry No. 67) is
denied.
No further filings will be entertained in this closed case.

Case: 19-16100, 09/16/2020, ID: 11825639, DktEntry: 66-1, Page 1 of 3

FILED

NOT FOR PUBLICATION

SEP 16 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VIVIAN EPPS,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16100
Plaintiff-Appellant,

D.C. No. 2:18-cv-01274-DGC

v.

MEMORANDUM*
CVS HEALTH CORPORATION,
Defendant-Appellee.
Appeal from the United States District Court
for the District of Arizona
David G. Campbell, District Judge, Presiding
Submitted September 8, 2020**
Before:

TASHIMA, SILVERMAN, and OWENS, Circuit Judges.

Vivian Epps appeals pro se from the district court’s summary judgment in
her diversity action alleging a negligence claim arising out of an incident at a CVS
store. We have jurisdiction under 28 U.S.C. § 1291. We review for an abuse of
discretion. Glick v. Edwards, 803 F.3d 505, 508 (9th Cir. 2015) (recusal); Valdivia

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 19-16100, 09/16/2020, ID: 11825639, DktEntry: 66-1, Page 2 of 3

v. Schwarzenegger, 599 F.3d 984, 988 (9th Cir. 2010) (Fed. R. Civ. P. 60(b));
DIRECTV; Inc. v. Hoa Huynh, 503 F.3d 847, 852 (9th Cir. 2007) (default
judgment). We affirm.
Epps failed to include any argument in her opening brief regarding the
district court’s grant of summary judgment on her claims, and thus has waived any
challenge to that issue. See McKay v. Ingleson, 558 F.3d 888, 891 n.5 (9th Cir.
2009) (arguments not raised in an appellant’s opening brief are waived).
The district court did not abuse its discretion in denying Epps’s Rule 60(b)
motions because Epps presented no basis for post-judgment relief. See Fed. R.
Civ. P. 60(b); Feature Realty, Inc. v. City ofSpokane, 331 F.3d 1082, 1093 (9th
Cir. 2003) (relief under Rule 60(b) is warranted only where the moving party can
show: (i) “newly discovered evidence” within the meaning of Rule 60(b); (ii) that,
with the exercise of due diligence, could not have been discovered earlier; and (iii)
that earlier production of which would have likely changed the disposition of the
case).
The district court did not abuse its discretion in denying Epps’s motions for
default judgement where defendant indicated that it intended to defend the action
by appearing and filing an answer and a motion to dismiss. See Direct Mail
Specialists, Inc. v. Eclat Computerized Techs., Inc., 840 F.2d 685, 689 (9th Cir.
1988) (a default judgment is inappropriate if defendant indicates its intent to

2

19-16100

Case: 19-16100, 09/16/2020, ID: 11825639, DktEntry: 66-1, Page 3 of 3

defend the action); Eitel v. McCool, 782 F.2d 1470, 1471-72 (9th Cir. 1986)
(explaining that “default judgments are ordinarily disfavored” and courts should
consider several factors in entering a default judgment).
The district court did not abuse its discretion in denying Epps’s motion to
recuse District Judge Campbell because Epps failed to demonstrate any basis for
recusal. See United States v. Hernandez, 109 F.3d 1450, 1453 (9th Cir. 1997)
(discussing standard for recusal under 28 U.S.C. §§ 144 and 455); United States v.
McChesney, 871 F.3d 801, 807 (9th Cir. 2017) (judicial rulings are not a proper
basis for recusal).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
All pending motions are denied.
AFFIRMED.

3

19-16100

Case: 19-16100, 09/16/2020, ID: 11825639, DktEntry: 66-2, Page 1 of 4

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.

B.

Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

l

Case: 19-16100, 09/16/2020, ID: 11825639, DktEntry: 66-2, Page 2 of 4

►
►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry ofjudgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

Case: 19-16100, 09/16/2020, ID: 11825639, DktEntry: 66-2, Page 3 of 4
The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.
Bill of Costs (Fed. R. App. P. 39,9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
and electronically file a copy of the letter via the appellate ECF system by using
►
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form-Rev. 12/2018

3

Case: 19-16100, 09/16/2020, ID: 11825639, DktEntry: 66-2, Page 4 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instructions for this form: http://www. ca9. uscourts. gov/forms/form 10instructions.pdf

9th Cir. Case Number(s)
Case Name
The Clerk is requested to award costs to (party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Date

Signature

(use “s/[typed name]" to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COST TAXABLE
DOCUMENTS / FEE PAID

No. of
Copies

TOTAL
COST

Pages per
Cost per Page
Copy

Excerpts of Record*

$

$

Principal Brief(s) (Opening Brief; Answering
Brief 1st, 2nd, and/or 3rd Briefon Cross-Appeal;
1ntervenor Brief

$

$

Reply Brief / Cross-Appeal Reply Brief

$

$

Supplemental Brief(s)

$

$

Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee

$

TOTAL: $
*Example: Calculate 4 copies of3 volumes ofexcerpts ofrecord that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. ofCopies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4x500x $.10 = $200.
Feedback or questions about this form? Email us at forms@.ca9. uscourts. gov

Form 10

Rev. 12/01/2018

Case 2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 1 of 11

1

WO

2
3
4

5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8

9

Vivian Epps,

No. CVI8-1274-PHX DGC
Plaintiff,

10
11

v.

12

CVS Health Corporation,

13

Defendant.

ORDER

14

15

Pro se Plaintiff Vivian Epps sued CVS Health Corporation (“CVS”) alleging

16

injuries received at CVS retail store #2963 (“Store 2963”). Doc. 1. CVS moves for

17

summary judgment (Doc. 71), and Plaintiff has filed a cross motion for summary judgment

18

(Doc. 79). The motions are fully briefed, and oral argument will not aid the Court’s

19

decision. Fed. R. Civ. P. 78(b); LRCiv 7.2(f). For the reasons that follow, the Court will

20

grant CVS’s motion and deny Plaintiffs motion.

21

I.

Background.

22

On January 23, 2017, Plaintiff visited Store 2963 in Phoenix, Arizona. See Doc. 72

23

K 1. She alleges that she suffered a head injury when a “metal bindery-shade,” situated

24

above the store’s dairy container, fell and hit her on the head. Doc. 1 at 1-2.

25

Plaintiff filed a complaint on April 25, 2018, naming CVS as the sole defendant.

26

See Docs. 1, 72 T[ 2, 84 T) 2. German Dobson CVS, EEC (“German”), moved to dismiss the

27

complaint, asserting that it owns and operates Store 2963 and that it had not been properly

28

served. Doc. 14. Plaintiff responded that she chose to sue the “HEADquarters rather than

Case 2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 2 of 11

1

the BODY of the snake.” Doc. 18 at 2. The Court denied German’s motion because it was

2

not a party to the suit and Plaintiff clearly stated her intent to sue CVS and not German.

3

Doc. 24 at 1.

4

At a case management conference on September 27, 2018, the Court explained to

5

Plaintiff that CVS and German were asserting that she had sued the wrong defendant. The

6

Court explained that Plaintiff could amend her complaint to name the correct defendant,

7

but if she chose to sue only CVS and the Court later determined on summary judgment that

8

CVS did not own Store 2963, summary judgment could be entered against her. Doc. 60

9

at 7-14. Plaintiff declined to amend and stated that she would stand on her complaint

10

against CVS. Id. The Court accordingly established a schedule for focused discovery on

11

whether CVS can be liable for Plaintiffs injures. Doc..53.

12

Discovery has now closed, and CVS moves for summary judgment. CVS asserts

13

that it cannot be liable to Plaintiff because it is not a possessor of Store 2963 and has no

14

special relationship that establishes a duty to Plaintiff. Doc. 71.

15

The Court explained at the case management conference that Plaintiff is required to

16

follow the Federal Rules of Civil Procedure and the Court’s Local Rules. Doc. 60 at 3-5.

17

The Court apprised Plaintiff of a handbook for pro se litigants prepared by the Court and

18

available on its website. Id. at 5. The handbook includes a section on the summary

19

judgment process. See Representing Yourself in Federal Court in the District of Arizona:

20

A Handbook for Self-Represented Litigants (3d. ed. 2016) at 70-73, available at http://

21

www.azd.uscourts.gov/handbook-self-represented-litigants. The Court also explained the

22

summary judgment process to Plaintiff in an order dated February 15, 2019. See Doc. 77.

23

Despite this attempted assistance, Plaintiff has filed a bewildering array of

24

documents. These include two motions for summary judgment (Docs. 74, 79), three

25

responses to CVS’s motion for summary judgment (Docs. 73, 76, 83), briefs in support of

26

her motion and response (Docs. 81, 85), a motion to submit copies of other evidence with

27

an accompanying memorandum (Docs. 90, 91), a motion for leave to file a response to

28

Defendants’ reply (Doc. 92), and a motion to amend or correct exhibits with an

-2-

Case2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 3 ot 11

1

accompanying memorandum (Docs. 95-96). Plaintiff attaches exhibits, most of them

2

duplicative, to eight of these filings. See Docs. 74, 75, 76, 79, 81, 82, 85, 86.

3

After Plaintiffs first motion for summary judgment and two responses to CVS’s

4

motion, the Court gave Plaintiff until February 28, 2019 to file a new motion for summary

5

judgment and until March 11,2019 to file a response brief that complied fully with Rule 56.

6

Doc. 77. Because they were filed after the Court’s clarifying order, the Court has focused

7

primarily on Plaintiffs second motion for summary judgment (Doc. 79) and her last

8

response to CVS’s motion (Doc. 83).

9

II.

Legal Standard.

10

A party seeking summary judgment “bears the initial responsibility of informing the

11

district court of the basis for its motion and identifying those portions of [the record] which

12

it believes demonstrate the absence of a genuine issue of material fact.” Celotex Corp. v.

13

Catrett, All U.S. 317, 323 (1986). Summary judgment is appropriate if the evidence,

14

viewed in the light most favorable to the nonmoving party, shows “that there is no genuine

15

dispute as to any material fact and the movant is entitled to judgment as a matter of law.”

16

Fed. R. Civ. P. 56(a). Summary judgment is also appropriate against a party who “fails to

17

make a showing sufficient to establish the existence of an element essential to that party’s

18

case, and on which that party will bear the burden of proof at trial.” Celotex, All U.S.

19

at 322.

20

III.

Negligence.

21

Because the parties do not dispute choice of law, and both apply Arizona law in

22

their briefs, the court will also apply Arizona law. A negligence action may be maintained

23

in Arizona “only if there is a duty or obligation, recognized by law, which requires the

24

defendant to conform to a particular standard of conduct in order to protect others against

25

unreasonable risks of harm.” Markowitz v. Ariz. Parks Bd., 706 P.2d 364,366 (Ariz. 1985);

26

see also Gipson v. Kasey, 150 P.3d 228, 230 (Ariz. 2007) (setting forth the elements of a

27

negligence claim). The primary issue is whether CVS owes a duty to Plaintiff.

28

-3-

Case 2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 4 of 11

1

Duty normally is determined as a matter of law. Beach v. City ofPhoenix, 667 P.2d

2

1316,1320 (Ariz. 1983). Under Arizona law, a duty must be based on a special relationship

3

recognized by the common law or a relationship created by public policy. See Quiroz v.

4

ALCOA Inc., 416 P.3d 824, 829 (Ariz. 2018).

5

A.

6

Arizona recognizes that a possessor of land has an affirmative duty to use reasonable

7

care to make its premises safe for use by invitees. See Markowitz, 706 P.2d at 368. To be

8

a possessor of land, an entity must occupy the land with the intent to control it. See

9

Timmons v. Ross Dress for Less, 324 P.3d 855, 856-57 (Ariz. Ct. App. 2014); Restatement

10

Premises Liability.

(Second) of Torts § 328E.

11

CVS argues that it neither possesses nor owns Store 2963, and that the owner of the

12

store is German. Doc. 71 at 4. CVS does not manage, own, or control German. Id. Nor

13

does CVS control any employees or conduct any business in Arizona. Id. CVS supports

14

these assertions with an affidavit from Melanie Luker, a senior manager of corporate

15

services for CVS Pharmacy, Inc. See Doc. 72-1 at 36-37

4-9; see also Doc. 72

16-20.

16

Plaintiff responds that CVS is the parent company of Store 2963 and that the store

17

is a subsidiary of CVS. Doc. 85 at 3. She asserts that a parent, by law, is liable for its

18

subsidiaries. Id. She attaches several exhibits, although her motion cites only a few of

19

them.

20

Exhibit A states “CVS Pharmacy Retail company” at the top and then states

21

“Description^] CVS Pharmacy is a subsidiary of the American retail and health care

22

company CVS Health.” Doc. 85 at 6. It provides a Rhode Island headquarters location

23

and states “Wikipedia.” Id. It also indicates “Parent organization: CVS Health.” Id.

24

Although it appears there are web addresses and other routing language at the top of the

25

page, it is not clear where the information originated. Id.

26

Exhibit B appears to be language copied from a website with an overview for CVS

27

Pharmacy, Inc. Id. at 8. It states: “The company sells its products through retail stores and

28

online. ... The company was incorporated in 1969 and is based in Woonsocket, Rhode

-4-

Case 2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 5 of 11

1

Island. CVS Pharmacy Inc. operates as a subsidiary of CVS Health Corporation.” Id. The

2

document provides a website address after the cited language. Id. It also contains what

3

are presumably webpage extracts, with website addresses for Fortune and Bloomberg.

4

Doc. 85 at 9. The clipped information refers to CVS’s purchase of Aetna, and the name

5

change to CVS Pharmacy, Inc. from CVS, Inc. Id. at 9.

6
7

Exhibit C provides a list of questions and answers and states that CVS Health owns
CVS Pharmacy, Inc., but fails to indicate the source of the information. Id. at 11.

8

Exhibit D refers to “the Company” without specifying that it is CVS and contains

9

general statements about its performance and operations. Id. at 13. It also includes

10

information about profits of CVS Health. Id. at 14.

11

Exhibit E appears to be a web search for information about Store 2963. It states that

12

“Cvs Pharmacy #02963 is doing business as a local retailer of German Dobson Cvs, LLC,

13

providing medical supplies and equipment which are considered as Medicare chargeable

14

items.” Id. at 17.

15

Exhibit F is an email from Jeannine A. Pratt to Plaintiff which says: “I just received

16

your letter about video for our CVS Store 2963.” Id. at 19. Ms. Pratt appears to be an

17

employee of CVS Health. Id.

18

Exhibit G appears to be a portion of a web page which states that “CVS Health has

19

more than 9800 CVS Pharmacy stores and more than 1100 Minute Clinic . . . retail

20

locations in 49 states, the District of Columbia, Puerto Rico, and Brazil.” Id. at 21. The

21

exhibit contains other information about CVS and an unrelated photograph, apparently of

22

Store 2963. Id. at 23.

23

CVS responds that Plaintiffs evidence cannot be considered because she fails to

24

show its admissibility. See Doc. 87 at 2.

25

“authentication or identification as a condition precedent to admissibility.” Id. “To satisfy

26

the requirement of authenticating or identifying an item of evidence, the proponent must

27

produce evidence sufficient to support a finding that the item is what the proponent claims

28

it is.” Fed. R. Evid. 901(a). Documents that are not properly authenticated cannot support

-5-

The Court disagrees. Evidence requires

Case 2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 6 ot 11

1

a motion for summary judgment. See Canada v. Blain’s Helicopters, Inc., 831 F.2d 920,

2

925 (9th Cir. 1987). But evidence need not be in an admissible form to avoid summary

3

judgment. See Celotex, All U.S. at 324; Fraser v. Goodale, 342 F.3d 1032, 1036 (9th Cir.

4

2003). At this stage, the proper inquiry is not the “admissibility of the evidence’s form,”

5

but whether the contents of the evidence are admissible. See Quanta Indent. Co. v.

6

Amberwood Dev., No. CV-11-01807-PHX-JAT, 2014 WL 1246144, at *2 (D. Ariz.

7

March 26, 2014) (quoting Fraser, 342 F.3d at 1036). CVS makes no objections regarding

8

the content of the evidence.

9

CVS also argues that the evidence, even if admissible, fails to demonstrate a genuine

10

dispute of material fact. The Court agrees. Plaintiffs evidence shows that CVS Pharmacy,

11

Inc. is a subsidiary of CVS, but it does not connect this relationship to ownership or

12

possession of Store 2963 as required for premises liability. The closest document appears

13

to be Exhibit F, in which Ms. Pratt refers to Store 2963 as “our store,” but Plaintiff provides

14

no further information. The Court cannot tell from the email whether Ms. Pratt is simply

15

referring to a CVS affiliate or franchise location, or whether CVS has some more

16

significant relationship with German. And Plaintiff provides no additional information on

17

this question.

18

CVS’s sworn affidavit indicates that German owns Store 2963, and nothing

19

provided by Plaintiff refutes that fact. To the contrary, Plaintiffs Exhibit E states that

20

Store 2963 “is doing business as a local retailer of German Dobson Cvs, LLC.” Id. at 17.

21

Nor does the evidence contradict CVS’s assertion that it does not control or manage

22

German. Plaintiffs evidence says nothing about the relationship between CVS and

23

German. Instead, Plaintiffs arguments conflate CVS Pharmacy, Inc. with Store 2963 and

24

erroneously equate subsidiary status with ownership or possession for the purposes of

25

premises liability. See Doc. 85 at 3; see also Airbus DS Optronics GmbHv. Nivisys LLC.,

26

183 F. Supp. 3d 986, 991 (D. Ariz. 2016) (“Generally, a parent corporation is not held

27

liable for the actions of a subsidiary.”). i

28
i

Plaintiff also asserts that “[ujnder the Occupiers Liability Acts 1957 and 1984, an
-6-

Case 2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 7 of 11

1

2

Plaintiff challenges CVS’s affidavit under Rule 56(e), arguing that it contains
inadmissible hearsay. See Doc. 84

5-9. The Court disagrees.

3

Inadmissible hearsay cannot support or defeat a motion for summary judgment. Kim

4

v. United States, 121 F.3d 1269, 1276-77 (9th Cir. 1997). But courts may consider hearsay

5

evidence contained in an affidavit where the affiant could later present the evidence in

6

admissible form at trial. See Fraser, 342 F.3d at 1036; Williams v. Borough ofW. Chester,

7

891 F.2d 458, 465 n.12 (3d Cir. 1989). No party argues that Ms. Luker would be unable

8

to testify at trial. And the facts set forth in her affidavit are based on her personal

9

knowledge as a senior manager of corporate services for CVS Pharmacy, Inc. This is

10

sufficient for considering an affidavit on summary judgment. See Fed. R. Civ. P. 56(c)(4).

11

In short, Plaintiff presents no evidence to controvert CVS’s showing that it does not

12

own Store 2963 or control German. Plaintiff was afforded a fair opportunity to name both

13

CVS and German as defendants in this action, and declined to do so. She was then afforded

14

a reasonable time to conduct discovery. Plaintiff has made multiple filings with numerous

15

exhibits, and yet has failed to produce probative evidence to dispute CVS’s assertions. The

16

Court will grant summary judgment on Plaintiffs premises claim because the undisputed

17

evidence shows that CVS did not own Store 2963 or control German.

18

B.

19

Under Arizona law, various categories of relationships can give rise to a duty aside

20

from the landowner-invitee relationship described above, including duties based on

21

contracts, family relationships, and the parties’ undertakings. Gipson, 150P.3d at 232.

22

Plaintiff asserts that CVS Health owes her a duty because it has a special relationship with

23

German as the parent company to Store 2963. Doc. 85 at 3. She cites no authority to

24

support this assertion. And even if Plaintiff could show a special relationship between

25

German and CVS (something she has not done), that would not equate to a duty owed to

26

Plaintiff. The relationship would only create a duty of care between German and CVS.

27

Occupier’s responsibility to ensure that Invitees to business premises will be reasonable
safe in using the premises AND [tjhat the Occupier’s owes a common Duty of Care to
Invitees.” Doc. 85 at 3. The Court assumes that she is referring to premises liability
because there is no independent basis for liability under an “Occupier’s Liability Act.”

28

Special Relationship.

-7-

Case 2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 8 ot 11

1

See Quiroz, 416 P.3d at 831 (the special employee-employer relationship between father

2

and the employer did not create a special relationship between the employer and any

3

member of the public who may have been exposed to secondary asbestos). Similarly,

4

Plaintiff cites no statute or authority supporting a duty as a matter of public policy. Quiroz,

5

416 P.3d at 830-31 (duties based on public policy are primarily derived from state statutes,

6

the common law, or the Restatement).

7

C.

8

Plaintiff argues that because Store 2963 is a subsidiary of CVS, the Court should

9

pierce the corporate veil and allow recovery against CVS under “Section 1159 of the

10

Companies Act 2006.” Doc. 85 at 3. She asserts that a parent corporation may be directly

11

or indirectly liable as an operator under the Supreme Court’s decision in United States v.

12

Best Foods, 524 U.S. 51, 64-65 (1998). Id. at 4. She asserts that a trial is required to

13

determine the power or influence CVS exercised over its subsidiary. Id. Even if German

14

was a subsidiary of CVS (something Plaintiff has not shown), Plaintiff has not presented

15

enough evidence to find a genuine issue of fact exists as to whether the corporate veil

16

should be pierced.

17

Piercing the Corporate Veil.

Best Foods is inapposite here

it addresses owner and operator liability under

18

CERCLA, the federal superfund statute. It recognizes that a parent corporation may incur

19

operator liability under CERCLA if it directly participates in operation of a subsidiary’s

20

polluting facility. 524 U.S. at 60. But Plaintiffs case against CVS is not brought under

21

CERCLA and there is no statutory operator liability here. Plaintiff cites no law for the

22

proposition that a parent corporation can be liable for its subsidiary’s negligence absent

23

piercing of the corporate veil.

24

In determining whether to pierce the corporate veil, the law of the state of

25

incorporation applies. Gemstar Ltd. v. Ernst & Young, 917 P.2d 222, 230 (1996). CVS is

26

a Delaware corporation organized under the laws of that state. Doc. 72 K 16. Under

27

Delaware law, piercing a corporate veil requires a fact-intensive inquiry regarding

28

(1) whether the company was adequately capitalized for the undertaking; (2) whether the

-8-

Case2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 9 of 11

1

company was solvent; (3) whether corporate formalities were observed; (4) whether the

2

controlling shareholder siphoned company funds; and (5) whether the company functioned

3

as a facade for the controlling shareholder. ASEA/AFSCME Local Health 52 Health

4

Benefits Tr. v. Abbott Labs., No. 17-cv-6704, 2018 WL 3022670, at *3 (N.D. Ill. June 18,

5

2018). Additionally, “[t]o state a ‘veil-piercing claim,’ the plaintiff must plead facts

6

supporting an inference that the corporation, through its alter-ego, has created a sham entity

7

designed to defraud investors and creditors.” Crosse v. BCBSD, Inc., 836 A.2d 492, 497

8

(De. 2003). The test for fraud essentially requires a showing that the subsidiary corporation

9

is nothing more than a legal fiction. See Pearson v. Component Tech. Corp., 247 F.3d 471,

10

485 (3rd Cir. 2001).

11

Plaintiff puts forth the following arguments to support piercing the corporate veil:

12

(1) when CVS decided to stop cigarette sales in their stores, German had no input (Doc. 85

13

at 3); (2) CVS and German operated as a single business entity that collected net revenue

14

(Id.; Doc. 86 K 17); and (3) German has inside office space at the CVS headquarters in

15

Rhode Island (Doc. 83 at 2). Plaintiffs first argument fails because she provides no

16

evidence to support it. She cites to what appears to be a company press release regarding

17

the cessation of the sale of tobacco products, but nothing in this document discusses

18

German’s role or authority in that decision. Doc. 85 at 23. Plaintiff also provides no

19

evidentiary support for her third argument.

20

Plaintiff supports her second argument with a document showing CVS’s operating

21

results for the first three months of 2018. See Doc. 85 at 14. She argues that this document

22

shows CVS controlled all of Store 2963’s financial revenue. Doc. 83 at 2. But this

23

document does not call into question CVS or German’s capitalization, solvency, or

24

corporate formalities, nor does it indicate that CVS operated through a sham entity with

25

the intent of defrauding investors or creditors. And while it mentions retail stores, it does

26

not refer to Store 2963 or state that CVS shared revenue with the store. Even if the mention

27

of retail stores were deemed to refer to Store 2963, this document would demonstrate only

28

one factor in a multifaceted inquiry into whether German and CVS operated as a single

-9-

Case 2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 10 of 11

1

entity. See Pearson, 247 F.3d at 485 (“[T]o succeed on an alter ego theory of liability,

2

plaintiffs must essentially demonstrate that in all aspects of the business, the two

3

corporations actually functioned as a single entity and should be treated as such.”).

4

Plaintiffs evidence is insufficient to pierce the corporate veil.

5

IV.

Plaintiff’s Motion for Summary Judgment.

6

Plaintiff cross moves for summary judgment on her negligence claims, asserting

7

that she has compiled overwhelming evidence that Store 2963 is a subsidiary of CVS and

8

CVS is liable for her injuries. Doc. 81 at 1-3. She submits the same evidence to support

9

her motion that she submitted in response to CVS’s motion. As discussed above, this

10

evidence does not establish that CVS owns, occupies, or controls Store 2963. Her evidence

11

is not authenticated and is hearsay, for which she has identified no exception. See Fed. R.

12

Evid. 901; Fed R. Evid. 802. The Court cannot grant a motion for summary judgment on

13

inadmissible evidence. See Canada, 831 F.2d at 925; see also Osborn v. Butler, 712 F.

14

Supp. 2d 1134, 1146 (D. Idaho 2010) (finding statements in a website inadmissible

15

hearsay); Internet Specialties West, Inc. v. ISPWest, No. CV 05-3296 FMC AJWX, 2006

16

WL 4568796, at *2 (C.D. Cal. Sept. 19, 2006) (“To be authenticated someone with

17

knowledge of the accuracy of the contents of the internet print-outs must testify.”). The

18

Court will deny Plaintiffs motion.

19

V.

Plaintiffs Other Motions.

20

Since filing her motion for summary judgment, Plaintiff has filed the following

21

documents: (1) a motion to be allowed to submit copies of other evidence; (2) a motion for

22

leave to file a reply to defendant’s response; and (3) a motion to amend or correct exhibits

23

1-10. Docs. 90, 92, 95. The Court will deny these motions.

24

Plaintiffs first motion, with accompanying memorandum, requests permission to

25

submit, pursuant to Rule 1004, copies of evidence from Exhibits A, B, C, D, E, F, and G.

26

Docs. 90, 91. Plaintiff states that the CEO of CVS had control of the originals of her

27

Exhibits A-G and failed to produce them. Doc. 91. She argues that Exhibits A-G should

28

be admissible even if they are not the originals. Id.

- 10-

Case 2:18-cv-01274-DGC Document 101 Filed 05/07/19 Page 11 of 11

1

Plaintiff has filed several different versions of Exhibits A-G. See Docs. 76, 81, 85,

2

86. The Court assumes Plaintiffs motion is intended to resolve admissibility challenges

3

to her evidence, but it makes no difference in the outcome of these motions. As shown

4

above, none of Plaintiff s evidence shows that CVS owned Store 2963 or owed her a duty.

5

Plaintiffs second motion requests leave to respond to CVS’s March 22, 2019 reply

6

brief. See Doc. 92. Plaintiff fails to offer a reason for a sur-reply, and the Court sees no

7

new argument in CVS’s reply that would justify it.

8

Plaintiffs third motion requests leave to file an amended motion to assert a claim

9

under Rule 1004 to admit the evidence in exhibits 1-10 of “Disposition Brief March 4,

10

2019.” Doc. 96. She argues that production of the originals is excused as a matter of law.

11

Id. Plaintiff did not submit a brief on March 4, 2019. She submitted Exhibits 2-9, attached

12

to her statement of facts in support of her motion for summary judgment (Doc. 80 at 6-38),

13

and the Court can only assume these are the exhibits she is referencing. Because allowing

14

copies rather than originals does not change the nature of this evidence, the Court will deny

15

this motion.

16

IT IS ORDERED:

17

1.

Defendant CVS’s motion for summary judgment (Doc. 71) is granted.

18

2.

Plaintiffs motions (Docs. 79, 90, 92, 95) are denied.

19

3.

The Clerk shall enter judgment for Defendant and terminate this action.

20

Dated this 7th day of May, 2019.

21
22
23
24

25

David G. Campbell
Senior United States District Judge

26
27
28

-11 -

Case 2:18-cv-01274-DGC Document 102 Filed 05/07/19 Page 1 of 1

1
2
3
4

5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Vivian Epps,

10

NO. CV-18-01274-PHX-DGC
Plaintiff,

11

v.

12

CVS Health Corporation,

13

Defendant.

JUDGMENT IN A CIVIL CASE

14

15
16

Decision by Court. This action came for consideration before the Court. The
issues have been considered and a decision has been rendered.

17

IT IS ORDERED AND ADJUDGED that, pursuant to the Court’s Order filed

18

May 7, 2019,which granted the Motion for Summary Judgment, judgment is entered in

19

favor of defendants and against plaintiff. Plaintiff to take nothing, and the complaint and

20

action are dismissed with prejudice.

21

Brian D. Karth
District Court Executive/Clerk of Court

22
23
24

25
26
27

28

May 7, 2019
By

s/ G. Puraty
Deputy Clerk

